<html>
<title> - OVERCROWDING AND PROLONGED DETENTION AT CBP FACILITIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


         OVERCROWDING AND PROLONGED DETENTION AT CBP FACILITIES

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                      IMMIGRATION AND CITIZENSHIP

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 15, 2019

                               __________

                           Serial No. 116-36

                               __________

         Printed for the use of the Committee on the Judiciary
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


      Available via the World Wide Web: http://judiciary.house.gov
      
      
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-445                      WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="097966496a7c7a7d616c6579276a666427">[email&#160;protected]</a>             
                       
                       
                       COMMITTEE ON THE JUDICIARY

                   JERROLD NADLER, New York, Chairman
ZOE LOFGREN, California              DOUG COLLINS, Georgia,
SHEILA JACKSON LEE, Texas              Ranking Member
STEVE COHEN, Tennessee               F. JAMES SENSENBRENNER, Jr.
HENRY C. ``HANK'' JOHNSON, Jr.,        Wisconsin
  Georgia                            STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          LOUIE GOHMERT, Texas
KAREN BASS, California               JIM JORDAN, Ohio
CEDRIC L. RICHMOND, Louisiana        KEN BUCK, Colorado
HAKEEM S. JEFFRIES, New York         JOHN RATCLIFFE, Texas
DAVID N. CICILLINE, Rhode Island     MARTHA ROBY, Alabama
ERIC SWALWELL, California            MATT GAETZ, Florida
TED LIEU, California                 MIKE JOHNSON, Louisiana
JAMIE RASKIN, Maryland               ANDY BIGGS, Arizona
PRAMILA JAYAPAL, Washington          TOM McCLINTOCK, California
VAL BUTLER DEMINGS, Florida          DEBBIE LESKO, Arizona
J. LUIS CORREA, California           GUY RESCHENTHALER, Pennsylvania
MARY GAY SCANLON, Pennsylvania,      BEN CLINE, Virginia
  Vice-Chair                         KELLY ARMSTRONG, North
SYLVIA R. GARCIA, Texas                Dakota
JOE NEGUSE, Colorado                 W. GREGORY STEUBE, Florida
LUCY McBATH, Georgia
GREG STANTON, Arizona
MADELEINE DEAN, Pennsylvania
DEBBIE MUCARSEL-POWELL, Florida
VERONICA ESCOBAR, Texas

        Perry Apelbaum, Majority Staff Director & Chief Counsel
                Brendan Belair, Minority Staff Director

                              ----------                              

              SUBCOMMITTEE ON IMMIGRATION AND CITIZENSHIP

                     ZOE LOFGREN, California, Chair
                PRAMILA JAYAPAL, Washington, Vice-Chair

J. LUIS CORREA, California           KEN BUCK, Colorado,
SYLVIA R. GARCIA, Texas                Ranking Member
JOE NEGUSE, Colorado                 ANDY BIGGS, Arizona
DEBBIE MUCARSEL-POWELL,              TOM McCLINTOCK, California
  Florida                            DEBBIE LESKO, Arizona
VERONICA ESCOBAR, Texas              KELLY ARMSTRONG, North
SHEILA JACKSON LEE, Texas              Dakota
MARY GAY SCANLON,                    W. GREGORY STEUBE, Florida
  Pennsylvania

                    David Shahoulian, Chief Counsel
                    Andrea Loving, Minority Counsel
                            
                            
                            C O N T E N T S

                              ----------                              

                             JULY 15, 2019
                           OPENING STATEMENTS

                                                                   Page
The Honorable Zoe Lofgren, California, Chair, Subcommittee on 
  Immigration and Citizenship, House Committee on the Judiciary..     1
The Honorable Ken Buck, Colorado, Ranking Member, Subcommittee on 
  Immigration and Citizenship, House Committee on the Judiciary..     3
The Honorable Jerrold Nadler, Chairman, House Committee on the 
  Judiciary......................................................    52

                               WITNESSES

Ms. Diana Shaw, Assistant Inspector General for Special Reviews 
  and Evaluations, Department of Homeland Security, Office of 
  Inspector General
    Oral Statement...............................................     4
    Prepared Statement...........................................     7

          LETTERS, STATEMENTS, ETC. SUBMITTED FOR THE HEARING

Department of Homeland Security Office of Inspector General 
  Management Alerts entitled, ``DHS Needs to Address Dangerous 
  Overcrowding Among Single Adults at El Paso Del Norte 
  Processing Center (Redacted)'' and ``DHS Needs to Address 
  Dangerous Overcrowding and Prolonged Detention of Children and 
  Adults in the Rio Grande Valley (Redacted)''; Submitted by the 
  Honorable Zoe Lofgren..........................................    20

                                APPENDIX

Prepared Statement of the Honorable Sheila Jackson Lee...........    78
Prepared Statement of Church World Service; Submitted by the 
  Honorable Zoe Lofgren..........................................    83

 
         OVERCROWDING AND PROLONGED DETENTION AT CBP FACILITIES

                              ----------                              


                         MONDAY, JULY 15, 2019

                        House of Representatives

              Subcommittee on Immigration and Citizenship

                       Committee on the Judiciary

                            Washington, DC.

    The subcommittee met, pursuant to call, at 5:30 p.m., in 
Room 2141, Rayburn House Office Building, Hon. Zoe Lofgren 
[chairman of the subcommittee] presiding.
    Present: Representatives Lofgren, Nadler, Jayapal, Correa, 
Garcia, Mucarsel-Powell, Escobar, Jackson Lee, Scanlon, Buck, 
McClintock, Armstrong, and Steube.
    Staff Present: Madeline Strasser, Chief Clerk; Susan 
Jensen, Parliamentarian/Senior Counsel; Joshua Breisblatt, 
Counsel; Rachel Calanni, Professional Staff Member; Sarnata 
Reynolds, Counsel; Andrea Loving, Minority Counsel; Andrea 
Woodard, Minority Professional Staff Member; and Jon Ferro, 
Minority Parliamentarian.
    Ms. Lofgren. The Subcommittee on Immigration and 
Citizenship will come to order. Without objection, the chair is 
authorized to declare recesses of the subcommittee at any time.
    We welcome everyone to this afternoon's hearing on 
overcrowding and prolonged detention at CBP facilities. And I 
would now recognize myself for an opening statement.
    In just 5 weeks' time, the DHS Inspector General has 
released two management alerts detailing dangerous conditions 
at U.S. Customs and Border Protection facilities in Texas. 
According to the IG, at some of these facilities, conditions 
are so bad that they require immediate attention and action.
    The first alert focused on the detention of single adults 
and detailed, quote, the dangerous holding conditions at the El 
Paso Del Norte Processing Center. Unfortunately, this report 
was not a surprise to me and my colleagues.
    Along with Vice Chair Jayapal and Chairman Nadler, I 
visited this same facility just a few months ago. Even then, 
the conditions we observed were unacceptable. Women, children, 
and families were either outside waiting to enter the facility, 
shoved into overcrowded cells, or sitting in hallways.
    Prior to our visit, we understood that hundreds of families 
had been housed outside for days in a tent behind the Border 
Patrol facility. We expected to meet with them, but to our 
surprise, the tent was empty. It was not until after our visit 
that we learned that the families had been transported to 
another facility the night before. It's unfortunate, but also 
not surprising, that the IG's observations are even more 
disturbing.
    As demonstrated in the IG report, although the facility's 
maximum capacity is 125 detainees, approximately 750 
individuals were detained on May 7, and 900 individuals were 
detained on May 8. Overcrowding to this extent is a clear 
violation of CBP's own standards, which provide that, quote, 
under no circumstances should the maximum cell occupancy rate 
as set by the fire marshal be exceeded.
    The IG also found that a significant number of individuals 
were being held longer than the maximum 72 hours set forth in 
CBP's standards. And although CBP is required to make a 
reasonable effort to provide showers for adults after 72 hours, 
most adults had not received showers at all and some had not 
showered in as long as a month.
    In June, the IG completed another round of inspections, 
this time in the Texas Rio Grande Valley sector. Here the IG 
found serious overcrowding and other dangerous conditions at 
facilities holding families and unaccompanied children. 
According to the IG, 31 percent of children, including children 
7 years old and younger, had been held in custody for more than 
72 hours, some for more than 2 weeks. This violates, not only 
CBP's standards, but the Flores Agreement.
    Sadly, we know the conditions documented by the IG are not 
limited to the facilities they visited. In June, lawyers 
reported horrific conditions at the Clint, Texas, Border Patrol 
facility, where some children had been held for weeks, sleeping 
on cold floors, and taking care of one another because of the 
lack of attention from guards.
    Just last week, it was reported that a 15-year-old girl 
from Honduras was sexually assaulted by a Border Patrol agent 
in Yuma while other agents watched. There is a crisis on our 
border, and, yes, Health and Human Services needed and now has 
additional resources so that children can be moved out of CBP 
facilities more quickly and into facilities built with their 
needs in mind.
    However, a lack of money is not the primary reason for this 
crisis. The Trump administration has made no secret of its 
intent to do all it can to deter children and families from 
seeking protection in the United States, as the law allows, 
without addressing the root causes that are driving migration 
to our border. This is sad. The mistreatment of these children 
and families is a moral stain on our Nation.
    I appreciate the willingness of the inspector general to 
testify before us today. The spot inspections conducted by the 
IG has shed a light on some of the Trump administration's worst 
practices. We cannot look away. It is well past time for the 
cruelty of these policies to be exposed and for those who led 
the United States into this disaster to be held accountable. 
Today's hearing is just the beginning of the oversight we will 
conduct on this important issue.
    It is now my pleasure to recognize the ranking member of 
the subcommittee, the gentleman from Colorado, Mr. Buck, for 
his opening statement.
    Mr. Buck. Thank you, Chairwoman Lofgren.
    As I have been saying now for months, there is a crisis on 
the southern border. It comes as no surprise that given the 
record number of individuals crossing the border illegally, 
Border Patrol facilities are overwhelmed and over capacity.
    I applaud the assistant inspector general for her office's 
work on exposing the conditions this crisis is causing, and I 
hope that her office will continue their investigations, 
especially as the crisis affects the most vulnerable among us, 
children.
    After months of the President, DHS officials, and other 
administration officials sounding the alarm about the security 
and humanitarian crisis on the southern border well before the 
inspector general's reports were first published, I am now 
encouraged that our colleagues finally agree that there really 
is a crisis. And I am hopeful that we can now engage in the 
difficult work of solving this crisis head-on.
    The inspector general's office issued two reports on 
overcrowding and prolonged detention at Border Patrol 
facilities in the El Paso and Rio Grande Valley sectors. These 
reports provide an objective perspective on the factors outside 
of CBP's control that are fueling this crisis, prolonging 
migrants' stay in CBP custody, and causing the overcrowded 
conditions identified in the inspector general's reports.
    As of the July 2, 2019, report says, CBP detains 
individuals on a short-term basis to allow for initial 
processing and then transfers the individuals to other 
government agencies, but that short-term system has been 
completely broken. Due to a failure to update our laws, there 
is an unprecedented influx of migrants crossing our border 
illegally, and many of these individuals are more vulnerable 
than individuals who came during prior influxes.
    So what do we need to do to fix this problem? We need a 
multilayered approach to a multilayered problem. We must 
continue to work with our partners internationally to support 
their own law enforcement and anticorruption efforts. I have 
worked closely with officials in Guatemala, and I have seen the 
good work that can be done when close friends collaborate in 
their common interests.
    We must continue to expand these initiatives to other 
countries, especially in Honduras and El Salvador. We must 
support economic development efforts in these countries to 
further elevate our hemisphere and let people have a chance to 
prosper in their own countries. We must also reform our 
immigration laws, including the TVPRA and the Flores Settlement 
Agreement, to ensure that our laws do not provide incentives to 
enter our country illegally and to use children to do it.
    The exploitation of children incentivized by our laws must 
stop. We must ensure that all of our diplomatic efforts, legal 
reform efforts, and law enforcement efforts combine to ensure 
that we are protecting vulnerable children.
    I look forward to hearing from the witness today about the 
IG's reports and the root causes of the crisis on our border. 
And I hope to work together with my colleagues, Republican and 
Democrat, to quickly provide commonsense bipartisan solutions 
to meet this crisis head-on.
    The chairwoman and I recently collaborated on a bipartisan 
immigration bill to fix a problem in our legal immigration 
system, and I am optimistic that we can repeat that success on 
issues as important as these. I look forward to the witness' 
testimony, and I yield back.
    Ms. Lofgren. Thank you. I thank the ranking member.
    It's now my pleasure to introduce today's witness, Ms. 
Diana R. Shaw. Diana Shaw was appointed the assistant inspector 
general for Special Reviews and Evaluations for the Department 
of Homeland Security, Office of Inspector General, in March of 
this year. She has also served in several other leadership 
positions with the inspector general's office, including 
assistant inspector general for Legal Affairs, acting counsel 
to the Inspector General, Director of Special Review Groups, 
and acting assistant inspector general for External Affairs.
    Prior to joining to Office of Inspector General, Ms. Shaw 
practiced law with a firm's white collar crime groups 
specializing in internal investigations and compliance 
counseling.
    Ms. Shaw, we thank you for taking the time to participate 
in today's hearing on this critical issue. We welcome you to 
the committee and we look forward to your testimony. And I 
would ask you now to please rise so that I can swear you.
    Raise your right hand.
    Do you swear or affirm under penalty of perjury that the 
testimony you are about the give is true and correct to the 
best of your knowledge, information, and belief, so help you 
God?
    Ms. Shaw. I do.
    Ms. Lofgren. Thank you very much.
    Let the record show that the witness answered in the 
affirmative.
    And we are now happy to receive your written testimony. 
Please know that your entire testimony will be entered into the 
record, and we would like to hear a summary in 5 minutes or so.
    We have a light, or usually we have a light, that tells you 
when your time is up. When it goes yellow, there's a minute 
left. When it's red, the 5 minutes are up. And we would love to 
hear from you at this moment.

  TESTIMONY OF DIANA R. SHAW, ASSISTANT INSPECTOR GENERAL FOR 
    SPECIAL REVIEWS AND EVALUATIONS, DEPARTMENT OF HOMELAND 
             SECURITY, OFFICE OF INSPECTOR GENERAL

    Ms. Shaw. Chairwoman Lofgren, Ranking Member Buck, and 
members of the subcommittee, thank you for inviting me to 
discuss DHS OIG's recent work on conditions at Customs and 
Border Protection holding facilities at the southern border.
    My testimony today will focus on the dangerous overcrowding 
and prolonged detention recently observed by DHS OIG inspectors 
in both the El Paso Del Norte Processing Center and at 
facilities in the Rio Grande Valley. These issues pose a 
serious and imminent threat to the health and safety, both of 
DHS personnel and detainees, and require the Department's 
immediate attention and action.
    DHS OIG conducts unannounced inspections of CBP facilities 
to evaluate compliance with CBP's transport, escort, detention, 
and search standards, otherwise known as TEDS standards.
    TEDS standards govern CBP's interactions with detainees, 
providing guidance on things like duration of detention, access 
to food and water, access to medical care, and hygiene.
    Our unannounced inspections enable us to identify instances 
of noncompliance with TEDS and to propose appropriate 
corrective action. In doing so, we seek to drive transparency 
and accountability at the Department of Homeland Security.
    Although CBP has struggled at times to achieve full 
compliance with detention standards, our recent unannounced 
inspections revealed a situation far more grievous than any our 
inspectors had previously encountered. For instance, when our 
team arrived at the El Paso Del Norte Processing Center, they 
found that this facility, which has a maximum capacity of 125 
detainees, had more than 750 detainees onsite. The following 
day, that number had increased to 900.
    At all the Border Patrol facilities we visited in the Rio 
Grande Valley, we also observed serious overcrowding among 
unaccompanied alien children, or UACs. Additionally, we found 
that individuals, including children, were being detained well 
beyond the 72 hours generally permitted under TEDS standards 
and the Flores Agreement.
    For instance, at the Centralized Processing Center in 
McAllen, Texas, many children had been in custody longer than a 
week. Some UACs under the age of 7 had been in custody for more 
than 2 weeks.
    Under these circumstances, CBP has struggled to comply with 
TEDS standards. For instance, although all facilities we 
visited in the Rio Grande Valley had infant formula, diapers, 
baby wipes, and juice and snacks for children, two facilities 
had not provided children access to hot meals, as required, 
until the week we arrived for our inspections. Additionally, 
children at three of the five facilities we visited had no 
access to showers, limited access to a change of clothes and no 
access to laundry facilities.
    Space limitations also affect single adults. The lack of 
space has restricted CBP's ability to separate detainees with 
infectious diseases, including chicken pox, scabies, and 
influenza, from each other and from the general population.
    According to CBP management, these conditions also affect 
the health of Border Patrol agents who are experiencing high 
incidence of illness.
    Further, there is a concern that the overcrowding and 
prolonged detention may be contributing to rising tensions 
among detainees. A senior manager at one facility in the Rio 
Grande Valley called the situation, quote, a ticking time bomb.
    Despite these immense challenges, we observed CBP staff 
interacting with detainees in a professional and respectful 
manner, and in general, attempting to comply with standards to 
the extent possible. Notwithstanding these efforts, Border 
Patrol requires immediate assistance to manage the overcrowding 
in its facilities.
    CBP is not responsible for providing long-term detention, 
and CBP facilities like those we visited are not designed to 
hold individuals for longer periods. However, with limited bed 
space available at ICE and HHS long-term facilities nationwide, 
detainees are left in CBP custody until a placement can be 
found.
    In its response to our recent management alerts, DHS 
described the situation on the southern border as, quote, an 
acute and worsening crisis. Our observations comport with that 
characterization which is why we have called on the Department 
to take immediate action to begin to remedy the situation.
    Although DHS has asserted that it has reduced the number of 
UACs in custody in the last few weeks, we remain concerned that 
it is not taking sufficient steps to address the overcrowding 
and prolonged detention we observed, particularly with respect 
to single adult detainees.
    We will continue to monitor the situation at the border, 
and have already begun new work aimed specifically at 
identifying the root causes of some of these issues. We hope 
this work will assist the Department in addressing these 
challenges. In the meantime, however, DHS leadership must 
develop a strategic coordinated approach that will allow it to 
make good on its commitment to ensure the safety, security, and 
care of those in its custody.
    Ms. Chairwoman, this concludes my testimony. I'm happy to 
answer any questions you or other members of the subcommittee 
may have.
    [The statement of Ms. Shaw follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Lofgren. Thank you very much for your testimony, for 
your work, and for your report.
    I would ask unanimous consent that the report itself be 
made a part of this record.
    [The information follows:]

      

                      CHAIR LOFGREN FOR THE RECORD

=======================================================================

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Lofgren. Before moving to questions, I'd like to 
recognize the chairman of the full committee, Mr. Nadler, for 
his opening statement.
    Chairman Nadler. Thank you, Madam Chair.
    The title of today's hearing, ``Overcrowding and Prolonged 
Detention in CBP Facilities,'' barely begins to convey the 
inhumane conditions children and families in CBP custody are 
experiencing in facilities along the southern border.
    Today, we'll focus on six Texas CBP facilities recently 
examined by the inspector general's office, which documented a 
culture of utter neglect and disregard for migrants that is 
profoundly disturbing. The IG's report is bad enough that it 
must not be read in a vacuum. We also cannot ignore the reports 
of sexual assault and retaliation against children at the Yuma 
Processing Center in Arizona, nor can we overlook the racist 
and misogynous Facebook postings by current and former CBP 
officers that dehumanize migrants and disparaged female Members 
of Congress.
    Not only did CBP leadership know about this group, it now 
appears that the chief of the Border Patrol herself was a 
member. This is the context in which we must consider the 
horrible conditions in CBP facilities.
    On May 30, 2019, the IG issued a management alert that 
focused on dangerous overcrowding of single adults at the Del 
Norte Processing Center, including the packing of 900 
individuals into a space with a maximum capacity of 125, and 
holding 41 individuals in a cell designed to hold 8. This 
overcrowding made it impossible for men and women to lie down, 
and some were forced to stay in standing room only conditions 
for days and even weeks. The photos accompanying the management 
alert powerfully illustrate the misery and suffering at these 
facilities.
    Although the DHS concurred with the IG's recommendations, 
the agency claims that it will not be able to correct these 
problems until November 30, 2020, nearly 18 months from now. It 
is outrageous that DHS leadership could read this report and 
decide that men, women, and children could be detained in these 
deplorable, horrible conditions for 18 more months.
    Just 5 weeks later on July 2, the IG issued another 
management alert that focused on the dangerous overcrowding and 
prolonged detention of children and adults at five CBP 
facilities in the Texas Rio Grande Valley. The IG documented 
that some 1,500 children and adults were held in short-term 
holding rooms longer than the 72 hours generally permitted, 
including more than 50 children 7 years old or younger who had 
been detained for over 2 weeks.
    Most of these individuals had not showered for the entire 
duration of their detention, even though several of them had 
been held for as long as a month. And most were still wearing 
the clothing they arrived in, days, weeks, and even up to a 
month before. That we would treat any human being this way is 
unconscionable. And this situation cannot be blamed solely on 
the increased number of asylum seekers arriving at the southern 
border.
    CBP made a choice here. ICE and the Department of Health 
and Human Services have the mandate and infrastructure to 
detain individuals for longer than 72 hours. If those 
facilities are full, however, CBP has the authority to release 
individuals and families after completion of intake processing.
    There is no doubt that the overcrowding and conditions 
documented in the six Texas facilities warranted release of 
some--of at least some of these asylum seekers. But it appears 
to be the Trump administration's policy to continue holding 
children and families in such conditions as a form of torture 
in order to deter others from coming. This is neither necessary 
nor conscionable nor sustainable.
    There is a humanitarian crisis in Central America and the 
Trump administration's policies are now creating a humanitarian 
crisis in our country too. The IG has done a great service to 
our Nation by regularly and impartially reviewing CBP 
conditions. Their findings require prompt action consistent 
with American laws and American values. Later this week, the 
Judiciary Committee plans to take up legislation to address 
deficiencies in CBP custody facilities.
    I thank the chair of the subcommittee, Ms. Lofgren, for 
holding this important hearing. I appreciate Ms. Shaw appearing 
today to discuss her office's findings. I'm glad for her 
testimony, and I yield back the balance of my time.
    Ms. Lofgren. The chairman yields back.
    Mr. Collins will certainly be recognized, if he is able to 
come. Otherwise, we will invite him to put his statement into 
the record.
    But to be even, I'll go to Mr. Armstrong for his questions, 
since Mr. Buck has asked that we go to him next.
    Mr. Armstrong. Thank you, Madam Chair.
    On May 30, 2019, the OIG report found conditions of 
overcrowding at the El Paso Del Norte Processing Center. The 
report on page 2 noted that total apprehensions during the 
first 7 months of fiscal year 2019 have already surpassed that 
of the total apprehensions of each of the same time period this 
fiscal--or for the past 4 years.
    It also has a chart comparing, just for the El Paso sector, 
that same time period, this fiscal year between October and 
April, compared to last year. And it states that the El Paso 
sector has seen an increase of 374 percent of unaccompanied 
alien children, 1,816 percent family units, and 82 percent of 
single adults. Are those numbers correct?
    Ms. Shaw. Yes, sir, that's the data we received from CBP.
    Mr. Armstrong. And the El Paso sector has experienced the 
sharpest increase in apprehensions as any other sector, 
according to the report?
    Ms. Shaw. That's correct.
    Mr. Armstrong. So if there were no individuals--I mean, if 
there were no illegal crossings at the border, there wouldn't 
be overcrowding at these facilities?
    Ms. Shaw. Well, Border Patrol facilities are specifically 
for individuals apprehended between ports of entry, so those 
who present at ports of entry remain there, those who cross the 
border between go to the BP facilities, Border Patrol.
    Mr. Armstrong. So yes?
    Ms. Shaw. Yes. If we had no one crossing between points of 
entry, there would be no one in those facilities.
    Mr. Armstrong. Your May 30 report noted that further 
limiting space--available space was the need to separate 
detainees with infectious diseases, such as chicken pox, 
scabies, and the flu, from each other and the general 
population, and that the facility only had seven general cells 
and three small isolation cells, right?
    Ms. Shaw. That's correct.
    Mr. Armstrong. And the report also noted that the ability 
of ICE to accept single adults into its detention 
infrastructure is strained, stating that ICE does not currently 
have sufficient detention bed space to take all Border Patrol's 
adult detainees, even though the report states in its footnote 
that ICE accepts single adults into ICE detention facilities as 
soon as space becomes available.
    So even though CBP completes processing of these 
individuals in a few days, these single adults are backing up 
in CBP custody because ICE doesn't have the room for them?
    Ms. Shaw. That's correct. And that's according to CBP 
management.
    Mr. Armstrong. And the report indicates that overcrowded 
conditions are a result of, one, high numbers of people 
crossing; two, the need to separate detainees with infectious 
diseases; and, three, the inability of ICE to accept single 
adults from CBP due to lack of bed space.
    Ms. Shaw. Those do seem to be some of the factors driving 
the issue.
    Mr. Armstrong. So if Congress doesn't act to do things, 
such as providing more ICE bed space or by addressing the root 
causes of the large numbers of migrants arriving on the 
southern border in the first place, CBP's only option to 
address the overcrowded conditions would be, what, to release 
them?
    Ms. Shaw. That could be one option, creating more space to 
detain them, but that wouldn't address the prolonged detention 
issue.
    Mr. Armstrong. And that's kind of one of the problems with 
the word ``immediately.'' I mean, we say immediately, we want 
something to happen. But creating more space cannot happen 
overnight, right? I mean, you have to--I mean, whether it's a 
tent facility, I mean, it still has to be something that can 
work.
    So, I mean, what's a timeframe to put one of these 
facilities up if everybody moved as quickly as possible?
    Ms. Shaw. I don't have precise statistics on that. I do 
know that the soft-sided structures are able to be deployed 
fairly quickly. And in the management response that we received 
from DHS to the management alert, they indicated that some of 
those facilities were up and ready to accept individuals, but 
the more complicated structures were going to take more time.
    Mr. Armstrong. And the reason I talk about immediately is 
the OIG response to DHS' response reiterated that immediate 
action is needed, and I think everybody agrees with that. But 
other than those steps that DHS is taking within the confines 
of the resources Congress has given them, what specifically 
does the OIG office expect DHS to do?
    Ms. Shaw. What we put in our management alert was we were 
looking for some action to address the issue. The response that 
we got was that the larger structure would not be ready until 
2020. And so we couldn't consider that a resolved 
recommendation when we're looking for something immediate.
    Mr. Armstrong. Well, and that is even before we talk about 
judicial injunctions and lawsuits and, I mean, those are going 
on. I mean, none of this is occurring in a legislative vacuum 
either.
    Ms. Shaw. Uh-huh.
    Mr. Armstrong. I mean, we can't prevent people from 
arriving sick and in need of medical care a segregation in that 
we've already maxed out ICE bed space. I just go back to, is 
the only other alternative just to release everybody?
    Ms. Shaw. I can't give you an answer on that at this point. 
What I can tell you is that part of the work that we have 
ongoing is to look at the root causes and allow us to do the 
deeper dive that would help us present some recommendations 
that we think could help solve the problem.
    Our management alerts are really meant to shine a light on 
an issue that is so important or emergent that we don't want to 
wait to do complete reporting and do the work that goes into 
creating solutions and recommendations. So this is a 
preliminary snapshot of the issue. We are doing that more in 
depth dive at this point and hope to have some very helpful 
recommendations come out of that work.
    Mr. Armstrong. Well, and I appreciate that because I think 
we need triage and long-term solutions. Thank you.
    Ms. Lofgren. Thank you.
    The chairman of the committee, Mr. Nadler, is recognized 
for 5 minutes.
    Chairman Nadler. Thank you, Madam Chair.
    And thank you for testifying here today. We appreciate you 
being here. I want to discuss the two management alerts you put 
out recently focusing on the inspection of the El Paso Del 
Norte Processing Center.
    As Representative Lofgren mentioned in her opening 
statement, we visited that facility back in late March, and 
even then, the facility was extremely overcrowded with people 
being held for long periods of time. Your inspection found 
things had deteriorated even further.
    Your report provides the following evidence of 
overcrowding, including photographs. A cell with a maximum 
capacity of 12 people holding 76, a cell with a maximum 
capacity of 8 holding 41, a cell with a maximum capacity of 35 
holding 155 people.
    For each of these cells, which we understand were only 
examples of the overcrowding at Del Norte, could you please 
estimate the size of the cell in terms of length and width?
    Ms. Shaw. I was not personally there, so I'm going off the 
same photographs that you have. I could get that information 
for you as a take-back.
    Chairman Nadler. Okay. Can you describe the conditions of 
the people and the insides of these cells, and understanding 
that you were not able to speak--as you witnessed them and 
understanding you were not able to speak with them directly?
    Ms. Shaw. Yes. So based on the photographs and the reports 
back from my team, many of the people in the cells that were 
overcapacity were standing shoulder to shoulder. There wasn't 
room to sit down. There certainly wasn't room to lie down.
    Chairman Nadler. So how do they sleep, standing up?
    Ms. Shaw. It was a challenge. I think we also reported that 
in some instances, individuals were standing on top of the 
toilets in order to get a little extra breathing room. So it 
was very, very crowded. And, of course, that, you know, 
contributes to a lot of issues, including possibility for 
transmitting infectious disease and potentially----
    Chairman Nadler. And lack of accessibility of that toilet 
for use?
    Ms. Shaw. Correct.
    Chairman Nadler. What steps, if any, was CBP taking to 
remedy the situation, the situation about the toilets being 
used for standing on instead of for use?
    Ms. Shaw. My understanding is that the conditions were what 
they were. They were trying to triage as best as possible. As 
you saw from some of the photographs, many of the individuals 
at that facility were outside for processing and would never 
have even seen the inside of the facility. So they're making 
use of that outside parking lot space as an effort to triage 
and release some of the pressure on the inside of the facility.
    Some of the detainees are moved to other facilities as 
quickly as possible, but even with those measures in place, it 
was still overcrowded in a way that our inspectors----
    Chairman Nadler. The report says that Border Patrol agents 
told us, that is your office, some of the detainees have been 
held in standing room only conditions for days and weeks.
    Ms. Shaw. That's correct.
    Chairman Nadler. Based on these admissions, is it your 
understanding that there were people in the facility who had 
not been able to sit or lie down for days or weeks?
    Ms. Shaw. In the most crowded cells, we did not go in to 
speak directly with the individual detainees, so I can't 
comment on the personal circumstances. But in standing room 
only conditions, it's hard to imagine how anybody could have--
--
    Chairman Nadler. And they were there for days and weeks in 
those conditions?
    Ms. Shaw. Correct.
    Chairman Nadler. Have you ever been in a CBP detention 
facility before where there were individuals who were not able 
to stand for 24 hours, let alone--or to sit for 24 hours, let 
alone multiple days or weeks?
    Ms. Shaw. I have not personally. I know my team has seen 
overcrowding in its day, but this certainly rose to a new 
level, which is part of what prompted us to write the 
management alerts.
    Chairman Nadler. And, lastly, I want to draw your attention 
to a photo on page 6 of the report. Your team observed staff 
discarding personal items, including backpacks, suitcases, 
handbags, and a child's doll in a dumpster.
    Did you witness CBP staff opening up, reviewing, assessing 
the condition and/or inventorying the personal items of 
immigrants before throwing them into a dumpster?
    Ms. Shaw. Again, I did not personally witness it, but our 
team did watch as they confiscated the materials and discarded 
them, and they were not being individually reviewed.
    Chairman Nadler. They were not being individually 
inventoried, so we don't know what they were throwing out?
    Ms. Shaw. Right, for the items in that dumpster. Now, when 
people did present, their valuables were tagged, things like 
phones and wallets, but the larger items got discarded.
    Chairman Nadler. Now, to the extent you were able to watch 
CBP staff handling personal items, could you estimate how long 
an officer took to assess the condition of an item before 
throwing it in the dumpster?
    Ms. Shaw. I don't know. I think it was a fairly fast 
assessment, but I could get more details on that for you.
    Chairman Nadler. Thank you. And, finally, staff told you 
and your investigators that it was necessary to dispose of all 
these personal items because they presented a, quote, 
biohazard, unquote.
    Based on your observations regarding staff's treatment of 
these personal items, were staff in a position to make this 
assessment that these were all biohazards, and were you 
satisfied with this justification?
    Ms. Shaw. I'm afraid I don't have information on that. I 
can tell you that under the TEDS standards, typically what 
should happen is that all of the property should be tagged and 
should move with the individual through the facility. This was, 
I think, a relatively new explanation that we've received, the 
issue of biohazard. It was clear that some of the items were 
wet and muddy, but others did not appear to be visibly----
    Chairman Nadler. It was clear that a lot of the belongings 
were just being thrown out pell-mell with no regard given to 
safeguarding the belongings of these people?
    Ms. Shaw. They were being collected and discarded, that's 
correct.
    Chairman Nadler. Thank you very much.
    My time has expired.
    Ms. Lofgren. The gentleman from Florida, Mr. Steube, is 
recognized.
    Mr. Steube. Thank you, Madam Chair.
    Ms. Shaw, isn't it true that these locations, El Paso and 
the Rio Grande Valley, were specifically selected for 
inspections because those sectors had seen unprecedented 
increase in the numbers of apprehensions?
    Ms. Shaw. That's one of the factors we consider. We also 
look at complaints we've received through the OIG Hotline, 
information that we've collected on past inspections. And we 
also rely on our investigators who are in the field and 
familiar with the facilities to help us identify where we ought 
to be looking.
    Mr. Steube. And by law, CBP is required to place 
unaccompanied alien children in its custody with Health and 
Human Services, correct?
    Ms. Shaw. I don't know that that's actually the case, but 
typically, for long-term detention, UACs are handed off from 
CBP to HHS ORR.
    Mr. Steube. Yeah. It's my understanding it's required by 
law that that occurs, and it's supposed to happen within 72 
hours. But if HHS doesn't have a shelter space for a child in 
CBP custody, well, I mean, I don't understand what they're 
supposed to do if there's not a place to take them. So should 
CBP simply release the child out onto the streets within the 
72-hour period provided for in law for that transfer to occur?
    Ms. Shaw. No, I don't think that they should do that. I 
think that's exactly the issue; they're having to hold people 
much longer than what's anticipated under the law.
    Mr. Steube. So it's not really CBP's problem--well, it's a 
problem, but it's not really their responsibility if they 
physically don't have anywhere to legally put this child. 
They're not going to just--as you said, you don't want them to 
just release the child out and let the child go, because that's 
going to create a number of different issues. So what are they 
supposed to do if there's not a place to transfer them to in an 
HHS bed?
    Ms. Shaw. That's exactly the problem that we're seeing. 
They have limited options, and so they're holding people for 
longer periods of time than the 72 hours.
    Mr. Steube. So it's not that Customs and Border Patrol is 
actively preventing children from being transferred to HHS 
custody; it's because they don't have a place to take them?
    Ms. Shaw. So we did not observe any indication that CBP was 
actively holding UACs or minors back from transfer. I can't say 
with absolute certainty, because we haven't finished our work 
yet, whether CBP has some role in the delays in transfer. 
That's something we would be looking at. For instance, if it's 
a manual process and there's missing information.
    But CBP has certainly suggested that lack of space at the 
HHS facilities is part of the problem in terms of the prolonged 
detention of UACs.
    Mr. Steube. So in your observation, then, the unaccompanied 
children are being moved to HHS bed space as soon as possible?
    Ms. Shaw. As soon as HHS can notify them of a placement and 
transportation can be arranged, yes.
    Mr. Steube. Okay. Both of your reports express concern for 
the welfare of the CBP officers and agents as well as the 
individuals in custody. Wouldn't you agree that congressional 
inaction to address the border crisis is putting our law 
enforcement personnel at increase in unnecessary risk of 
illness, anxiety, and violence?
    Ms. Shaw. I don't have an opinion on that. I can tell you 
from our work that it is creating a pressure situation for the 
agents. We did observe agents stressed, anxious, high incidence 
of illness, not only of the agents but their families. So it is 
creating a difficult situation.
    Mr. Steube. When you talk about disease amongst the 
individuals coming into custody, and some of those are 
contagious diseases, so if the officers are being suspected to 
that--susceptive to that, then that's obviously putting them at 
risk to get those illnesses?
    Ms. Shaw. That's true.
    Mr. Steube. Your office remained unsatisfied with DHS' 
responses to the management alerts. And you stated in your 
testimony that you remain concerned that DHS needs to take 
immediate steps, and this is along the lines of what Mr. 
Armstrong was asking. So wouldn't the only other immediate 
steps to be taken simply to release all single adults, like we 
are forced to do with family units, and then admit that we have 
a broken system? What else are you supposed to do with these 
single adults?
    Ms. Shaw. Right. Unfortunately, I don't have an answer for 
you on what the solution to the problem is. We are doing a 
deeper dive to try to understand all of the factors and be able 
to put forward a more comprehensive set of recommendations. But 
based on our initial observations, which we reported in the 
management alert, we don't have a position yet on what would 
solve the problem.
    Mr. Steube. Well, I mean, we're talking about single adults 
here. So what if some of those were criminals? I mean, wouldn't 
it be your position that you don't want criminals released into 
the American society?
    Ms. Shaw. So when we go in, we're looking at compliance 
with TEDS standards, and the standards lay out how long people 
are supposed to stay with CBP. And so we document and report on 
issues of noncompliance. I'm not going to state an opinion on a 
broader question about immigration policy.
    Mr. Steube. So you don't have an opinion as to whether we 
release criminals from other countries into our country. You 
don't have an opinion on that?
    Ms. Shaw. I have an opinion, but I'm here in my official 
capacity as a member of the IG community. I'm not here to 
express my personal opinion.
    Mr. Steube. Okay. I yield back to the chair.
    Ms. Lofgren. The gentleman yields back.
    The gentlelady from Washington, Ms. Jayapal, is recognized.
    Ms. Jayapal. Thank you, Madam Chair.
    And thank you, Ms. Shaw, for being here. Is it true that 
there could be many reasons for why there is overcrowding in 
CBP related to policy choices that the administration is 
making?
    Ms. Shaw. We have not done the work yet to determine what 
the root causes are, but we expect that they're going to be a 
range of issues that come together and create a set of 
circumstances.
    Ms. Jayapal. Right. That is why in fact you're doing the 
root causes examination, to see why--and why folks are backing 
up at the border.
    Ms. Shaw. Precisely.
    Ms. Jayapal. Earlier, you said that--you were discussing 
the ports of entry question, and you said that apprehensions 
are up, and that is for between the legal ports of entry, 
correct?
    Ms. Shaw. That's right.
    Ms. Jayapal. And so what happens when you have a policy 
that blocks the legal ports of entry for people to enter into? 
Is it reasonable to say that people then, if they can't come 
through the legal ports of entry, would then be crossing 
between the legal ports of entry because we've actually closed 
those legal ports of entry?
    Ms. Shaw. So we have not done extensive work on that, but 
in our family separations report that we put out last fall, we 
did identify an instance of at least one, possibly two, 
individuals who had suggested that there could be an uptick in 
illegal border crossings when there's a backup at the port of 
entry, but that's something that we would need to look into.
    Ms. Jayapal. Thank you. I just wanted to make sure I'm 
responding to my colleagues across the aisle who are implying 
that somehow border crossings are up, but the reason they're up 
is because, in part--and you're going to look at this, so you 
don't need to answer this question--because the Trump 
administration has instituted metering, which has essentially 
closed the legal ports of entry. And as Ms. Lofgren said, we 
have been to the border many times actually now, and we have 
actually watched this happening where people are turned back 
from legal ports of entry because of metering.
    You didn't look at, in your report, whether or not ICE beds 
were actually filled to capacity or whether or not HHS had 
space; you just asked CBP. Is that correct?
    Ms. Shaw. That's correct. And we did speak with ICE and 
HHS--or maybe just ICE--and got some preliminary information on 
that, but we haven't independently corroborated that 
information.
    Ms. Jayapal. So if ICE beds are filled, it could be because 
we're overusing detention itself. I just want to quote, this 
was in an article in ProPublica--no, actually, I think it was 
Wall Street Journal that said: By talking about this as a 
resource issue, DHS is trying to convince people that the 
problem is a lack of adequate facilities in which to detain 
people rather than the overuse of detention itself.
    And before I go to my next questions, I want to call your 
attention to a BuzzFeed article on July 10 of 2019, where Carla 
Provost, the CBP border chief, said that HHS didn't have bed 
space, as you had mentioned. But HHS is quoted in that article, 
Mr. Weber, as saying that it has taken every unaccompanied 
child that was referred.
    So, in other words, there was nobody that Border Patrol 
referred that HHS didn't take. So I hope when you look at the 
root causes, you will really carefully examine what space was 
actually available.
    I want to follow that up for your other--as you go into the 
root causes discussion--ProPublica on July 12 of 2019, said 
that--this is another piece that I think needs to go to the 
question that the chairman raised about the actions and the 
attitude of Border Patrol. But Border Patrol agents were 
passing around a commemorative coin mocking care for migrant 
children and just indicated that we should keep the caravans 
coming so that the money could continue to flow.
    Let me go to healthcare. Given the severe overcrowding and 
condition that people arrived in, did the team believe that 
there were enough healthcare staff, including doctors and 
nurses, onsite to treat illnesses on arrival or as a result of 
the overcrowding?
    Ms. Shaw. So access to medical care is something that we 
look at. We haven't reported on it yet. We're preparing a 
capping report to cover all of our unannounced inspections for 
this year, which will be a more comprehensive look at our 
findings. It will include access to medical care.
    I will tell you that beyond sort of a fairly 
straightforward look at what sort of medical care they're 
providing in terms of accessed individuals, emergency services, 
we at DHS OIG don't really have the subject matter expertise at 
this point to evaluate the quality of that care or to reach a 
final conclusion about whether it's sufficient. Something that 
we are considering, funding permitting, is to try to contract 
to bring in some of that expertise, so that's something that we 
could consider looking at in future work.
    Ms. Jayapal. And the last thing I want to raise is, 
according to notes contained in the FOIA that record 
discussions between DHS OIG and CBP and ERO leadership, there 
was situations in which a mother gave birth and then was 
returned to CBP custody until the mother could be transferred 
to ICE custody.
    Is it your understanding that the newborn accompanied the 
mother when she was returned to CBP detention? And what 
justification, if any, did the CBP provide for continuing to 
detain a newborn baby and a post-partum mother?
    Ms. Shaw. I'm sorry, I don't have any information about 
that particular case.
    Ms. Jayapal. Thank you. I yield back.
    Ms. Lofgren. The gentlelady yields back.
    The gentleman from California is recognized.
    Mr. McClintock. Thank you, Madam Chairman.
    First, just to continue that point, whether they're coming 
through legal ports of entry or crossing the border between 
ports of entry, have we seen an increase in illegal immigration 
over this past year?
    Ms. Shaw. I can tell you, based on the apprehension data 
that we got, that there's a significant increase, particularly 
in El Paso sector and the Rio Grande Valley.
    Mr. McClintock. Not just an increase, but a significant 
increase where they're coming through the legal ports of entry 
or coming illegally across the border itself?
    Ms. Shaw. That's correct.
    Mr. McClintock. Can you tell us, as these illegal 
immigrants are entering our country, what is being done to 
screen for disease, criminal records, verify their actual 
identity, as well as an actual family relationship with the 
children they're bringing?
    Ms. Shaw. So I can't--I don't have the details on it. CBP 
does initial processing. At that point, if the adult has 
arrived with a minor child, they do what they can, sort of 
operationally feasible, to evaluate the parental relationship 
between the child and the parent. They do a screening for 
medical, which can vary from asking someone how they're feeling 
or if they have any illnesses to actually looking for 
indications of illness.
    Mr. McClintock. Okay. Suppose someone were coming through a 
legal port of entry through, say, San Francisco or New York.
    Ms. Shaw. Did you say a legal port of entry?
    Mr. McClintock. A legal port of entry. A legal immigrant 
entering this country. How is the screening for these issues, 
disease, criminal record and the like, how is that conducted, 
and how does that differ with those that are coming illegally 
across our southern border?
    Ms. Shaw. Oh, I see. So when someone presents at a port of 
entry without travel documents?
    Mr. McClintock. Correct.
    Ms. Shaw. Right. I would have to get back to you to 
determine whether there are any material differences in the way 
that they are processed. I'll get back with my staff----
    Mr. McClintock. I'd appreciate that.
    Ms. Shaw [continuing]. And get you some details on that.
    Mr. McClintock. One of the great concerns is that there is 
very little screening going in as far as disease. If you're 
simply asking somebody how they're feeling, you're obviously 
not screening very thoroughly for disease. If you're not 
actually able to verify their identity, run criminal records, 
it doesn't sound like you are doing very much to screen for 
criminals entering the country. And with the actual family 
relationships, I'm told, perhaps you can help me on this, that 
there is a fairly large percentage of children being brought 
into this country by illegal immigrants who are not actually 
related to them.
    Ms. Shaw. I've heard those reports. We have not done any 
work on that issue.
    Mr. McClintock. Well, let me ask you. You're the inspector 
general, why aren't you doing work on that issue?
    Ms. Shaw. It's a resource issue, but it's something that we 
are constantly considering. We're looking at issues, doing a 
risk-based analysis to determine where best----
    Mr. McClintock. I would think that those issues are 
absolutely critical to the security of our southern border and 
absolutely central to what's going on down there right now.
    Ms. Shaw. Very important issues, absolutely.
    Mr. McClintock. Let me just expand on the point that Mr. 
Steube raised. A child was apprehended by Customs and Border 
Patrol, they've got to be released within 72 hours under the 
Flores Agreement. Is that correct?
    Ms. Shaw. Yes.
    Mr. McClintock. And if the CBP apprehends children, they're 
only allowed to release them to HHS?
    Ms. Shaw. If it's an unaccompanied alien child, the child 
is supposed to be transferred into HHS custody.
    Mr. McClintock. And that's not just a choice; that has to 
happen. They're legally required to release these children to 
that one Federal agency, correct?
    Ms. Shaw. I believe that's correct.
    Mr. McClintock. And the TVPRA requires that these 
unaccompanied children being released to the HHS, the HHS is 
then supposed to process the children, find their relatives and 
foster care for them. So the Federal law requires them to be 
released solely to HHS. The Department regulations and consent 
decree requires this all to be done within 72 hours, but that's 
not happening, right?
    Ms. Shaw. Correct. We have prolonged detention in many 
cases.
    Mr. McClintock. So the CBP is between a rock and a hard 
place. They're violating their own regulations and the Flores 
Agreement by keeping these children, but they'd be violating 
the TVPRA by releasing these children to anyone other than HHS, 
who doesn't have the capacity to accept these children. Is that 
essentially what's going on?
    Ms. Shaw. CBP cannot unilaterally effect a transfer to ICE 
or HHS. They need ICE and HHS to find a suitable placement.
    Mr. McClintock. How important is the $4.6 billion that the 
President requested months ago and that House Democrats delayed 
for several months before finally releasing it a week or two 
ago?
    Ms. Shaw. We have not looked at that. We do have ongoing 
work that is evaluating what CBP's plan is for deploying those 
funds.
    Mr. McClintock. How long will it take those funds to be 
deployed?
    Ms. Shaw. I couldn't tell you, but I know some of them are 
meant to be spent this year. So there's a very small window in 
which it could be spent.
    Mr. McClintock. Thank you.
    Ms. Lofgren. The gentleman yields back.
    The gentleman from California, Mr. Correa, is recognized 
for 5 minutes.
    Mr. Correa. Thank you, Madam Chair.
    And I want to thank Inspector Shaw for being here today and 
testifying.
    You decided to spot check El Paso Norte Inspection 
Processing Center. You mentioned you had some complaints, 
complaint hotline. Who put in those complaints that was one of 
the reasons you made that inspection happen quickly?
    Ms. Shaw. So just to clarify for the record, that's 
generally how we identify where we want to go with our 
unannounced inspections. That doesn't suggest that we got a 
particular complaint about any particular facility. It's one of 
the factors that we look at.
    Mr. Correa. That hotline, who calls in that hotline? 
Officers working there? Citizens? Who actually calls in?
    Ms. Shaw. We get upwards of 30,000 complaints a year that 
come from everyone across the country. It might be internal, a 
DHS employee, it be might be a concerned citizen, sometimes 
it's an advocate for someone who's in detention. So we get the 
full range.
    Mr. Correa. You have visited dozens of detention centers in 
your career. Have you ever seen overcrowding or conditions 
comparable to those that we are seeing today?
    Ms. Shaw. So our inspections team, some of whom have been 
doing this for a decade, had never seen anything like this 
before.
    Mr. Correa. So looking back at the eighties, nineties, 
we've had a refugee challenge in this country for a number of 
years from Central America. What is it that's different this 
time? I mean, under the Obama administration, I remember, as a 
State senator, going to visit some of the facilities, and I 
concur with you, I've never seen anything like this.
    In your deep dive, will you be able to determine what the 
difference is in terms of what has caused this situation to 
spring up on us all of a sudden?
    Ms. Shaw. We will be trying to understand that and identify 
those issues, within the limits of our jurisdiction. So we 
oversee the Department of Homeland Security. We will be looking 
at factors that impact them; we will not be able to opine on 
broader policy questions. But certainly, we'll be looking at 
things like volume and the demographic of folks who are 
crossing, because obviously, the more family units and UACs we 
receive, the more constraints there are in space because there 
are rules about who can----
    Mr. Correa. Again, you talk about the volume, but I know 
that in the past, we've had time periods when the volumes have 
been comparable, yet the circumstances that we see here are not 
comparable.
    Ms. Shaw. I do know that in 2014, we saw an influx of 
unaccompanied alien children crossing. At that time period, we 
did see high rates. We saw, I think, some overcrowding and 
prolonged detention, but again, this is something we have not 
seen before.
    Mr. Correa. And in 2014, did you check those alien children 
for criminal backgrounds?
    Ms. Shaw. DHS OIG?
    Mr. Correa. Yes.
    Ms. Shaw. No, we did not.
    Mr. Correa. Or other agencies?
    Ms. Shaw. I don't have information on what DHS might have 
done in those individual cases.
    Mr. Correa. Should we be checking those children for 
criminal backgrounds?
    Ms. Shaw. I don't have an opinion on that. That's not an 
issue that we've looked at DHS OIG.
    Mr. Correa. Thank you very much. And, again, as you do your 
deep dive, I hope that your agency--and I think you have done 
some good work, but I hope you continue to do it. What is it 
that is different now? Again, I've seen this--I know during the 
Salvadorian civil war, massive number of refugees. 2014, again, 
that was a time period I inspected facilities in the State of 
California, and never have we ever seen these kinds of 
conditions. And, again, folks at the border being overwhelmed. 
Border checkpoints. Crossing between border checkpoints.
    We've got to figure out what has led to these conditions, 
and I hope that you do that deep dive, and not policy, but give 
us some facts, compare and contrast past years versus current 
years, what have administrations done different that have led 
to situations less serious than what we have here today?
    Thank you, Madam Chair. And with that, I yield the 
remainder of time.
    Ms. Lofgren. The gentleman yields back.
    I would recognize the ranking member of the subcommittee, 
the gentleman from Colorado.
    Mr. Buck. Thank you very much, Ms. Shaw, for being here 
today.
    We just want to follow up on something the gentleman just 
asked in terms of comparable volumes. And I understand that 
this isn't your job, but it is the work of the agency that 
reports these.
    In 2014, the agency reported--and I'm going to ask you if 
this is correct. I'm not trying to lead you, but just ask you 
if this is approximately correct. The agency reported 
approximately 2,000 individuals per day crossing the border. 
And in 2019, we have between 4- and 5,000 individuals per day 
crossing the border.
    Do those numbers sound approximately correct?
    Ms. Shaw. I'm sorry. I personally don't know that 
information, but I could get back to you with some more details 
on that.
    Mr. Buck. What I'd like to know is if there were comparable 
numbers, because I don't believe there were comparable numbers. 
I think that the surge that we have seen in individuals in the 
last few months is unprecedented and has put an unprecedented 
amount of stress and strain on the system. And so, I'd 
appreciate knowing that.
    Ms. Shaw. Sure.
    Mr. Buck. You were at some of these facilities?
    Ms. Shaw. Not me personally, my team.
    Mr. Buck. And did your team give you feedback--and I'm 
going to ask you to take your official hat on off for a second.
    But as a person, it pains me to see individuals in this 
kind of crowded condition. Did anybody express that to you?
    Ms. Shaw. On my team?
    Mr. Buck. Yes.
    Ms. Shaw. What I can tell you--and I like to stay close to 
our public reporting. But I can tell you that the day that they 
completed their second day of inspections, the team was 
concerned, and immediately emailed me with photographs and a 
summary of what they had seen. And based on that information, I 
made an immediate decision that we needed to put out a 
management alert, and that it needed to be done within 3 to 4 
weeks so that we could shine a light on the issue, because it 
was something that we had never seen before, and because of the 
risks associated with the overcrowding.
    Mr. Buck. So as a person, there were individuals on the 
team that were concerned about the conditions that these 
immigrants were being held in?
    Ms. Shaw. Absolutely. They immediately identified the risks 
associated with that.
    Mr. Buck. Were there also concerns about the staff that--
that was there, and the stress that was placed on the staff?
    Ms. Shaw. We try to talk to staff when we do these 
inspections and hear their points of view as well. We did ask 
them and got information about the higher rates of illness. We 
did report on some staff experiencing low morale, looking to 
make early retirement. So we do try to collect that information 
as well. And we reported on it because we found that also to be 
a risk factor and concerning.
    Mr. Buck. Well, I guess what I'm trying to figure out is, 
were there any staff that were happy that they were working in 
these kinds of conditions and happy that they were trying to--
that they were holding people as they were being held? It 
sounds like a very stressful situation for everybody.
    Ms. Shaw. Our observation was that everybody was challenged 
by the circumstances.
    Mr. Buck. And we heard the word ``torture'' used earlier by 
the chairman of the full committee. Did your staff or team see 
any torture? You know what torture is. You're an attorney.
    Ms. Shaw. Yes.
    Mr. Buck. There is an international norm for torture. Did 
you see or your team see----
    Ms. Shaw. We did not evaluate whether torture by any sort 
of legal definition was taking place. What we do look at are 
the minimum standards which were not being complied with in 
terms of overcrowding and the conditions there. And so we did 
find that concerning.
    Mr. Buck. When you do this deep dive, will you be looking 
at the interior of the country and noting the impact that 
immigration has, particularly on small, rural communities, 
where an influx of individuals can literally bankrupt a school 
district, and putting stress on the school district having 
monolingual Spanish-speaking or foreign-speaking students in 
that school district and trying still to educate English-
speaking students where class sizes are increasing?
    Will you have any deep dive on the effect of that vast 
numbers of illegal immigrants create on a healthcare system in 
small or rural communities? Will you have any deep dive on the 
impact that vast numbers of illegal immigrants have on the 
justice system in smaller, rural communities?
    Ms. Shaw. So that's probably beyond the scope of the work 
that we will be doing, although we always do look to try to 
understand effects of the findings that we make. And so, we 
would be looking at that, but probably not doing the deep dive 
that I hear you describing.
    Mr. Buck. And will you, in this deep dive, look at the 
causes of why people are coming to this country in the numbers 
that they're coming to, and especially taking advantage of the 
asylum laws, if they're being coached to give certain answers 
when they arrive in this country? So they don't identify 
economic reasons for being here, but rather, they identify 
personal risks and safety reasons.
    Ms. Shaw. So we'll follow the facts where they lead us. 
Doing in-depth research in a foreign country about the 
circumstances there is probably beyond our scope. But 
certainly, at the time that folks are presenting or being 
apprehended, we'll be looking at the reasons that they're 
giving, we'll be looking at the explanations provided by 
management, and trying to independently corroborate whatever we 
can.
    Mr. Buck. And my time is up, and I yield back.
    Thank you very much.
    Ms. Lofgren. The gentleman yields back. I'd like to 
recognize the gentlelady from Texas, Ms. Garcia.
    Ms. Garcia. Thank you, Madam Chair, and thank you so much 
for putting this hearing together, and Ms. Shaw, thank you for 
being here today.
    And as I understand it, you did not personally visit these 
centers, but you had a team, right?
    Ms. Shaw. That's correct.
    Ms. Garcia. How much time did they spend there?
    Ms. Shaw. Two days in one instance. And I'm trying to 
remember for the June trips if it was 2 or 3 days.
    Ms. Garcia. So they were able to get a good flavor for 2 
days or 3 days of all of the operations of these facilities?
    Ms. Shaw. Yes.
    Ms. Garcia. Well, were you able to identify--I know you 
said in your testimony, you mentioned at-risk populations, what 
you described to be the unaccompanied minor children and their 
families.
    Could you characterize for me just what you mean by at-
risk, and what precautions that we're taking for these at-risk 
populations?
    Ms. Shaw. So at-risk is defined in the TEDS standards. And 
it includes minors, pregnant individuals, people whose safety 
may be compromised for some other reason. So that's defined, 
and that's the population that we look at.
    And in particular, our unannounced inspections this year 
were focused primarily on children, so either children who were 
physically separated from their children while in custody, or 
who had arrived unaccompanied.
    Ms. Garcia. Would that also include young women that were 
pregnant or came through, or anyone that came through with any 
young children?
    Ms. Shaw. Yes.
    Ms. Garcia. Like newborns or toddlers?
    Ms. Shaw. Yes, pregnant women or women traveling with 
children.
    Ms. Garcia. Are pregnant women shackled?
    Ms. Shaw. Pardon?
    Ms. Garcia. Are pregnant women shackled?
    Ms. Shaw. Shackled--I would have to get back to you on 
that. I don't believe so, but I would have to----
    Ms. Garcia. I know there were some reports of that.
    So did you see any children or anyone under 18 years old 
shackled in any way?
    Ms. Shaw. No, I don't believe our team observed anybody in 
the facilities in shackles.
    Ms. Garcia. Okay. Now, I understand that you said that--you 
made reference to someone suggesting that it was a ticking time 
bomb, that the--you know, anybody in the Texas heat that has to 
be standing up, I would dare say for even less than a day would 
be--I know I wouldn't be able to handle it.
    So what--what, if anything, do you think that they should 
be doing to avoid the potential of a riot, or some serious, you 
know, issues happening at any one of these facilities, 
particularly in the adult area?
    Ms. Shaw. Well, I mean, the short answer is any relief that 
they can give to the system would help certainly with the 
overcrowding and the prolonged detention.
    We don't yet have work that would allow us to propose 
solutions. That is part of what we're hoping to do with our 
deeper dive. But before we can make recommendations, we need to 
better understand the root causes, the full range of root 
causes, and from there, we can inform our recommendations for 
the Department.
    Ms. Garcia. Most of those, again, are impacted by policy 
decisions made by members all the way from the White House down 
on how people should be treated, and how they should be 
handled. Don't you agree?
    Ms. Shaw. I haven't done the work yet. We will report 
faithfully our findings.
    Ms. Garcia. Tell me again when you plan to do this deep 
dive?
    Ms. Shaw. We've started the work. It's a deep dive, so it's 
going to be a lengthier evaluation. It's not something we would 
want to rush. At the same time, we understand it's very time 
sensitive, so we're going to be working as expeditiously as we 
can to get the reporting out.
    Ms. Garcia. So what did people at these facilities tell you 
that the folks were eating?
    Ms. Shaw. I'm sorry. Could you repeat that?
    Ms. Garcia. What were they eating?
    Ms. Shaw. What were they eating? So there was a range. I 
know baloney sandwiches, sometimes if it was possible, frozen 
food that had been heated.
    Ms. Garcia. Was it the famous frozen burrito?
    Ms. Shaw. It may have been in some instances.
    Ms. Garcia. Whoever has that contract is doing well.
    Ms. Shaw. Okay. So as we reported in one of the management 
alerts, the children who were supposed to have at least two hot 
meals a day had not received them until the week of our 
arrival. And so, what we saw was really a range. There was not 
a lack of food, but, you know, hot meals and----
    Ms. Garcia. It was not hot?
    Ms. Shaw [continuing]. And a variety.
    Ms. Garcia. I know in emergency situations, we always talk 
about three hots and a cot. They're not, for sure, getting a 
cot. They're for sure not getting even two hots, not even one 
hot----
    Ms. Shaw. Until the week of our inspection, correct.
    Ms. Garcia. We understood through an FOA request that there 
was no food contract and two employees were using their work 
credit cards to order $10,000 worth of food for each day.
    Ms. Shaw. That's correct.
    Ms. Garcia. Did you find that?
    Ms. Shaw. Yes. I believe that's what we've reported.
    Ms. Garcia. And do you know why they're not able to correct 
that?
    Ms. Shaw. I think it was a timing issue. My understanding 
is that they have addressed the food contracting issue. If it's 
the instance that I'm thinking of, it just took them longer.
    Ms. Garcia. Just quickly, for the record. I sat on the 
Education Committee of the Texas State Senate, and there was 
never a school district that came to us to tell us that they 
were bankrupt because of any migrant children overflow or any 
Spanish speakers. I mean, I think that is one of the big myths 
that goes along, among many others, about topic of immigration.
    Ms. Lofgren. The gentlelady's time has expired.
    Ms. Garcia. Thank you.
    Ms. Lofgren. And we would turn now to the gentlelady from 
Florida, Ms. Mucarsel-Powell.
    Ms. Mucarsel-Powell. Thank you, Madam Chair.
    Thank you, Ms. Shaw. Thank you for coming in and 
testifying, and for that report.
    The report that was issued by your office showed that the 
administration is detaining people in horrible, inhumane 
conditions at the border. There's severe overcrowding. At some 
facilities, a cell that is meant for 35 people has over 155 
people that are kept in standing room cells for days, sometimes 
weeks, as you mentioned, no place to lie down or really have 
any breathing room. I think we're losing all human decency in 
this country.
    The reports also show that there are not showers available, 
toilets and sinks are not available for the people that have 
been apprehended.
    And what was so shocking to me is that I heard Vice 
President Pence, when he visited the facilities last week and 
he saw these inhumane conditions, and he saw for himself the 
overcrowded cells that we are showing this afternoon in the 
hearing, and his comments were, what we saw today was a 
facility that is providing care that every American would be 
proud of.
    And so I ask you, Ms. Shaw, from what your office saw at 
these facilities, are these conditions something Americans 
should be proud of?
    Ms. Shaw. So I obviously can't comment on the conditions 
that Vice President Pence observed. But from the conditions 
that our team observed during our two unannounced inspections, 
we found serious issues with the overcrowding and prolonged 
detention, which are not in compliance with CBP's own standards 
for minimum care.
    Ms. Mucarsel-Powell. You believe we could to better than 
that?
    Ms. Shaw. I think what our reporting shows is that there is 
room for improvement.
    Ms. Mucarsel-Powell. So--and also to reply to some of my 
colleagues across the aisle that say that we haven't provided 
the resources, I want to remind everyone here today that in 
2017, the House of Representative sent $12.2 billion to CBP, 
and the Democratic majority House of Representatives has sent 
to date, in 2019, $14.7 billion.
    So the resources are there. The apprehensions are high, 
because we are not processing asylum requests, and because this 
administration has chosen to detain people seeking refuge and 
asylum.
    A question that I want to turn to now is the OIG's 
management alert about the Rio Grande Valley facilities.
    The report states that 31 percent of the children held at 
these facilities had been there longer than 72 hours. 165 of 
the children have been living in these horrible conditions for 
weeks.
    Ms. Shaw, isn't this prolonged detention of the children in 
violation of the Flores agreement?
    Ms. Shaw. The Flores agreement does seek to have children 
moved out within 72 hours.
    Ms. Mucarsel-Powell. And what were the reasons that the CBP 
gave you for holding these children for so long?
    Ms. Shaw. So CBP's assessment, the individuals that we 
spoke with, indicated that it was a lack of space available to 
take both minors and single adults.
    We have not finished our deep dive to independently 
corroborate whether that's true or whether there are other 
issues impacting that, but that is something that we will be 
looking at very carefully.
    Ms. Mucarsel-Powell. And did your team find that the 
children were being kept in cells like we described, 
overcrowded cells, where there's not even enough room for them 
to lay down, or with basic health/sanitation resources?
    Ms. Shaw. So the cells that we observed holding family 
units, so people with children, and then also unaccompanied 
alien children, were overcrowded. It, in some instances, didn't 
allow for laying down a mat, even though it was possible to lay 
down.
    So the situation was very crowded, maybe not as significant 
as what we saw at the El Paso Del Norte facility, but 
certainly, concerning and made compliance with the TEDS 
standards very difficult.
    Ms. Mucarsel-Powell. Did the team that visited the 
facilities talk about the demeanor of the children?
    Ms. Shaw. They did. You know, as you might expect, there's 
a range, but that is something that we observe when we go on 
site. And, you know, we saw overcrowding, people who had been 
there a long time, children who were confused about their 
circumstances and what was happening.
    Ms. Mucarsel-Powell. So it was clear also that we continue 
to separate children from their families at the border?
    Ms. Shaw. Well, I can tell you in CBP facilities, at a 
minimum, there is physical separation happening all the time, 
simply because the rules dictate what populations are allowed 
to be detained in the same space with others. So there may be 
instances where parents are separated from their children while 
they're in physical custody. We didn't evaluate whether legal 
separations or separations with a legal impact were happening. 
That was outside the scope of my----
    Ms. Mucarsel-Powell. And my last question----
    Chairman Nadler. The lady's time has expired. And----
    Ms. Mucarsel-Powell. Quickly, age range for the kids that 
are being detained that your team saw?
    Ms. Shaw. We saw a vast range. But I think at one of the 
facilities, or at least in the Rio Grande Valley, we saw at 
least 50 UACs under the age of 7.
    Ms. Mucarsel-Powell. Thank you.
    Ms. Lofgren. The gentlelady from Texas, Ms. Escobar, is 
recognized.
    Ms. Escobar. Madam Chair, thank you so much for holding 
this hearing today. I'm very grateful for it.
    Ms. Shaw, thank you for being here.
    I think it is very important that we focus on solutions. 
And while some of my colleagues on the other side of the aisle 
want to focus on resources, I would like to remind them that 
there was an emergency supplemental passed in February, there 
was another emergency supplemental passed a couple--a few 
months later, and things haven't changed. And so for many of 
us, it's not simply a question of resources; it's a question of 
policy.
    I represent El Paso, Texas, which is at the very heart of 
your investigation. And I have seen these conditions over and 
over again. And so, I'm asking you questions coming from a 
place of deep knowledge of what's happening in my own 
community.
    So we've been hearing for a long time that the conditions 
in CBP are this way because ICE beds for single adults are not 
available. Isn't it true that CBP has the ability to release 
migrants from custody the same way that ICE does?
    Ms. Shaw. I'm sorry. I couldn't answer that question for 
you.
    Ms. Escobar. It does. And I'd like for you to include that 
in your deep dive, please.
    What justification, if any--if any of your investigators 
asked, did CBP provide to explain why it is refusing to release 
people, even though migrants are suffering in appalling 
conditions for weeks on end?
    Ms. Shaw. That's not something that we reviewed as part of 
these inspections.
    Ms. Escobar. I would like for you all to follow up on that, 
please.
    Is it your understanding that ICE beds are available, but 
that the agency is refusing to accept single adults in order to 
ensure bed availability for increased interior enforcement, 
such as the recent raids the administration has ordered?
    Ms. Shaw. I don't have any information on that. I'm sorry.
    Ms. Escobar. I would love for the OIG to look into that, 
because, obviously, one has to wonder how can the 
administration conduct such significant interior ICE raids if 
there are no beds available? So I would very much like for you 
to look into that.
    Also, Ms. Shaw, are you aware that the El Paso--at Border 
Patrol Station 1, there is a pretty significant soft-sided 
facility?
    Ms. Shaw. I believe that's correct, yes.
    Ms. Escobar. Okay. And my staff visited Border Patrol 
Station 1 the week before there was a congressional delegation 
visit to Clint, and there were 200 women who had been held for 
over a month outdoors in 90-plus degree heat. And just yards 
away there was a nearly empty soft-sided facility.
    Do you know why that is?
    Ms. Shaw. That's not something that our teams observed, so 
I'm afraid I don't have any information about that.
    Ms. Escobar. Okay. Would you all look into that, please? 
Would you mind, as a follow-up?
    I would also ask if you believe there are other policy 
decisions by the administration, such as family separation, 
that has exacerbated the increasing number of individuals 
arriving at our border, that by separating families, we could 
very well--or the Trump administration could very well have 
made a challenging situation far, far worse?
    Ms. Shaw. So as part of our root cause analysis, we will be 
looking at various factors. One could be policy. But we don't 
make policy on behalf of the Department. We evaluate compliance 
with policy. But in looking at cause and effect, it's something 
that might come up.
    Ms. Escobar. There is something else I would like for you 
all to look into.
    At the El Paso ICE detention facility, we have heard from 
lawyers that there are a number of single adults in long-term 
detention, some up to a year, some longer than a year, 
essentially being held by the administration even though they 
don't have a criminal record, even though they have a sponsor 
in the country. And have you all looked at anything like that?
    Ms. Shaw. So we haven't looked at that specific issue, but 
we also conduct unannounced inspections of ICE facilities to 
evaluate their compliance with their own standards. And so in 
the course of doing that, we do interview individuals, hear 
about how long they've been detained and collect evidence about 
that.
    Ms. Escobar. I would urge you to do that, only because we 
keep hearing over and over again that we need more ICE beds. 
Again, the interesting detail, there is going to be--there has 
been, starting Sunday, ICE raids all over the country. Where 
will people go if there are full ICE beds. And also, would like 
for you to look at that long-term detention.
    And I just want to say in closing that I find it deeply 
troubling that at a hearing where we're looking at really 
horrific conditions for people in our custody, that we get a 
request from the ranking member that you look at the impact 
that Spanish speakers are having on schools in rural America.
    Thank you for your time today.
    Ms. Lofgren. The lady's time has expired.
    The gentlewoman from Texas, Ms. Jackson Lee, is recognized 
for 5 minutes.
    Ms. Jackson Lee. I thank the chairwoman. I add my 
appreciation for the hearing at this time.
    I thank the Assistant Attorney Inspector General, Ms. Shaw, 
thank you for your presence here.
    I noticed the date on the initial report coming from your 
visit to the various sites. It says May 30th.
    Was that the date that the Secretary received your report?
    Ms. Shaw. No, that was the date the report was published 
for the public. We send over draft reports for management 
comment.
    Ms. Jackson Lee. What date did the Secretary get the 
report?
    Ms. Shaw. For May 30th, I believe we sent it to them on May 
20th.
    Ms. Jackson Lee. On May 20th. Thank you.
    Ms. Shaw. Yes.
    Ms. Jackson Lee. And so as you well know, you have seen a 
series of congressional groups, and as well, the Vice 
President. And I assume you watched television, social media, 
and you've seen some similar sites that you have seen, that you 
saw when you inspected? Is that accurate?
    Ms. Shaw. I think so, yeah.
    Ms. Jackson Lee. And so, can you explain to me why the 
Secretary of Homeland Security and his staff, from May 20th to 
July 2nd and July 1st, when I was in the area, and then just 
last week, last Thursday for the Vice President, why conditions 
were exactly the same?
    Ms. Shaw. I can't comment on what the conditions were at 
the time of their visits, so I wouldn't be able to compare them 
to what we saw.
    Ms. Jackson Lee. Well, do you look at television?
    Ms. Shaw. I actually don't----
    Ms. Jackson Lee. Okay. If it----
    Ms. Shaw [continuing]. Don't watch too much television.
    Ms. Jackson Lee. If it was overcrowding, is that not a 
challenge that what you reported on May 20th was still going 
on, on last Thursday?
    Ms. Shaw. Again, I can't comment on----
    Ms. Jackson Lee. But if it was, would that be a problem?
    Ms. Shaw. Overcrowding of facilities is noncompliance with 
TEDS standards and that can be a problem.
    Ms. Jackson Lee. And it is what you reported to the 
Secretary; is that not correct?
    Ms. Shaw. Correct.
    Ms. Jackson Lee. All right. And in your report--let me read 
into the record--you said: This is for your action is our final 
management alert--management alert, DHS needs to address 
dangerous overcrowding among single adults at El Paso Del Norte 
Processing Center, the purpose of which is to notify you of 
urgent issues that require immediate attention and action.
    If those same conditions were at another site, say 
McAllen--you may not have visited there--would that also 
require urgent attention?
    Ms. Shaw. Depending on the seriousness of the issue, 
potentially, yes.
    Ms. Jackson Lee. But if it was the same as what you saw--if 
it was--this is obviously a hypothetical.
    Ms. Shaw. This level of overcrowding was significant enough 
that we put out a management alert before continuing our deeper 
dive.
    Ms. Jackson Lee. Do you believe it's important that you 
have the opportunity to visit without notice?
    Ms. Shaw. Yes. I think that that helps us get the best----
    Ms. Jackson Lee. And is that important, as far as you can 
relate, to have the opportunity to visit without notice as 
relates to oversight?
    Ms. Shaw. For our oversight, we consider it important to be 
able to come unannounced and see issues as they are that day.
    Ms. Jackson Lee. And it might likely be as important for 
Members of Congress on the Oversight Committees?
    Ms. Shaw. I don't have an opinion on that. I'm sorry.
    Ms. Jackson Lee. At least you mentioned that oversight 
warrants having the opportunity to visit.
    Let me ask about morale, without notice. Morale. Did you 
take note of the fact that morale among the staff might be 
challenged, the Border Patrol, and also that they're 
experiencing a lot of illnesses? What impact would that have?
    Ms. Shaw. All we reported were our observations and the 
information we collected. Certainly, it seems to be 
contributing to a very stressful environment. I think folks 
generally seemed tired and overworked. Beyond that, I don't 
have any additional information.
    Ms. Jackson Lee. You watched a lot of men standing in a 
crowded circumstance?
    Ms. Shaw. Yes, in one of the detention holding cells.
    Ms. Jackson Lee. With that kind of crowded atmosphere, 
without making any judgments about those individuals, is that 
something that could possibly create a violent situation, 
violent response, a natural, normal response, a frustration 
among those who were detained, not that they are violent, but 
because of the conditions?
    Ms. Shaw. I can't make a general statement, but I can say 
that when we observed, particularly in the Rio Grande Valley, 
that tensions were very high and that as soon as our presence 
was known among the detainees, they did sort of express 
frustration and try to get our attention. And it became serious 
enough that we actually ceased our work and didn't press 
further, which we would typically do, just in order to make 
sure that we were maintaining the safety for both personnel, 
DHS personnel, and the detainees.
    Ms. Jackson Lee. And you saw children who were likewise----
    Ms. Lofgren. And the lady's time has expired.
    Ms. Jackson Lee [continuing]. Situated? Thank you for your 
presence here.
    Ms. Lofgren. The gentlelady from Pennsylvania is recognized 
for 5 minutes.
    Ms. Scanlon. Thank you, Chair Lofgren, for calling this 
really important hearing.
    And thank you, Ms. Shaw, for your work.
    I just wanted to turn to the July 15 report that you have 
given to us today.
    Just to summarize a couple of the top-line findings. So my 
understanding is that this report, and the one from May and the 
one from earlier in July, all come from the Inspector General's 
office conducting unannounced inspections at CBP.
    Ms. Shaw. I'm sorry. The July 15th report, is that----
    Ms. Scanlon. That's your statement for today----
    Ms. Shaw. Oh, okay.
    Ms. Scanlon. That was submitted.
    Ms. Shaw. Got it. Thank you. Just wanted to make sure I was 
on the same page.
    Ms. Scanlon. Sure.
    And so on the first page of that, it indicates that your 
inspectors observed dangerous overcrowding and prolonged 
detention. Is that right?
    Ms. Shaw. Correct.
    Ms. Scanlon. Okay. And that included noncompliance with 
standards applicable to children, including lack of access to 
hot meals, showers, and change of clothes, right?
    Ms. Shaw. Correct.
    Ms. Scanlon. And those findings led you to publish two 
alerts raising the issues to the attention of DHS leadership 
and requesting immediate action, right?
    Ms. Shaw. Correct.
    Ms. Scanlon. And you recommended that the Department of 
Homeland Security take immediate steps to alleviate dangerous 
overcrowding and prolonged detention?
    Ms. Shaw. That's right.
    Ms. Scanlon. Okay. And then in your conclusions, you say 
that the Department has not developed a long-term plan to 
address these issues; is that right?
    Ms. Shaw. That's our understanding, yes.
    Ms. Scanlon. Okay. And that the Department's response to 
your management alerts is not sufficient?
    Ms. Shaw. Correct.
    Ms. Scanlon. Okay. Now, before December 2018, no child had 
died in Customs and Border Patrol custody in a decade. But at 
least seven children have died in custody of Customs and Border 
Patrol since last year.
    So I think all of us have a lot of concerns about what goes 
beyond being a troubling statistic but a horrifying fact, is 
that children are dying in American custody at the border, 
correct?
    Ms. Shaw. Yes. I think we have confirmed that we have 
ongoing investigations into several of those deaths.
    Ms. Scanlon. Okay. I wanted to follow up on an exhibit or a 
figure that Chairman Nadler was looking at and asked a couple 
of questions. It was figure 5 from the May 30th, 2019, report. 
Okay. And the explanation for that photo just kind of stopped 
me in my tracks.
    It indicates that your team saw hundreds of detainees in 
lines surrendering their valuables to Customs and Border 
Patrol. So money and phones. But your team also observed staff 
discarding all other detainee property such as backpacks, 
suitcases, and handbags in a nearby dumpster.
    And then figure 5, which we have up now, showing backpacks, 
handbags, and a doll. These are the detainees' personal 
possessions, correct?
    Ms. Shaw. Correct.
    Ms. Scanlon. Okay. And it is not standard policy to throw 
away the personal possessions of people seeking asylum in this 
country, is it?
    Ms. Shaw. No. The TEDS standards that govern this say that 
you should be bagging and tagging property, and it typically 
would be stored and then given back to the alien when they're 
released.
    Ms. Lofgren. The gentlelady's time has actually expired, 
because we got a late start on the clock.
    Ms. Scanlon. Oh.
    Ms. Lofgren. And I'm wondering if you could yield back so I 
can just make a few comments, and then we will go to vote, 
because we are over our time.
    Ms. Scanlon. Of course. I yield back.
    Ms. Lofgren. Yield back.
    I would just like to make a couple of points.
    First, Dilley was empty and Berks was empty when these 
pictures were taken. So there was capacity in ICE that was 
unused.
    It took the Obama administration 10 days to build a surge 
capacity in 2014 when there was a surge of individuals coming 
over, primarily unaccompanied minor children. And it is not 
correct that this is illegal--208(a)(i) of the Immigration and 
Nationality Act provides that individuals seeking asylum may do 
so, either at ports of entry, or between ports of entry. So it 
would be a misnomer to say this is illegal entry. In fact, it 
is provided for in the Immigration and Nationality Act.
    I'd just like to say, confirm, that you, in your further 
looking, will take a look at the Border Patrol Facebook group 
and 9,500 current and former Border Patrol members whose 
postings were racist and dehumanizing.
    Is that part of what you're going to be looking at?
    Ms. Shaw. So one of projects that we recently put a 
proposal together for and that we will be doing is looking 
specifically at who within the DHS senior leadership was aware 
of it, how they utilized that site, if at all, and what action 
has been taken.
    Ms. Lofgren. Thank you. We have reports out of Yuma that 
are horrifying about conditions, and also, sadly a report, 
unconfirmed, about an allegation of sexual assault by a border 
patrol agent against a 15-year-old Honduran girl.
    Can you confirm that you're looking into these incidents as 
well?
    Ms. Shaw. I can confirm that we are investigating the 
circumstances surrounding the allegations of the individual.
    Ms. Lofgren. I would ask, if possible, within your scope, 
that you take a look to see whether there are other allegations 
of sexual abuse that have come in or can be confirmed. We want 
to make sure that none of that is happening.
    I understand that you did an inspection of Clint before 
conditions deteriorated. Do you plan to take another look at 
that situation, and are you going to continue to take a look at 
these border patrol stations?
    Ms. Shaw. We do intend to continue our unannounced 
inspections next year. We don't advertise where we're going.
    Ms. Lofgren. Of course not.
    Ms. Shaw. So they'll be truly unannounced. But, yes, we'll 
continue to monitor the situation carefully.
    Ms. Lofgren. I'd just like to close with this.
    We have a large number of people seeking freedom at our 
border pursuant to the Immigration and Nationality Act. Some of 
them will qualify; some of them will not. But we are seeing a 
management failure here, the unwillingness or inability to use 
facilities that are available, instead piling people up in 
these border patrol stations. The Family Case Management 
Program that was fully funded at the beginning of this year, 
that had a nearly 100 percent track record for people showing 
up to their asylum hearings, has not been implemented, with no 
explanation at all.
    So I appreciate your appearance here today, your good work. 
I think we will see you again.
    And I will now conclude today's hearing, understanding that 
without objection, all members have 5 legislative days to 
submit additional written questions for the witness or 
additional materials for the record.
    Without objection, the hearing's adjourned.
    [Whereupon, at 6:54 p.m., the subcommittee was adjourned.]

      

                                APPENDIX

=======================================================================

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
